U.S. Department of Agriculture
 Office of Inspector General
      Northeast Region
         Audit Report


     ELECTRONIC BENEFITS
       TRANSFER SYSTEM
      STATE OF NEW YORK




              Audit Report No.
              27099-16-Hy
              December 2001
                  UNITED STATES DEPARTMENT OF AGRICULTURE
                                  OFFICE OF INSPECTOR GENERAL
                                           Northeast Region
                                             Suite 2-2230
                                  5601 Sunnyside Avenue, Stop 5300
                                    Beltsville, Maryland 20705-5300




Date:         December 7, 2001

REPLY TO
ATTN OF:      27099-16-Hy

SUBJECT:      Electronic Benefits Transfer System
              State of New York

TO:           Frances E. Zorn
              Regional Administrator
              Northeast Region
              Food and Nutrition Service


This report presents the results of the subject audit. The Food and Nutrition Service’s

November 21, 2001 response to the official draft report is included as Exhibit A. Excerpts

from the response and the Office of Inspector General (OIG) position are incorporated into

the Findings and Recommendations section of the report.


We concur with the agency’s management decision for all recommendations (Nos. 1

through 12) included in the report. Follow your internal agency procedures in forwarding

final action correspondence to the Office of the Chief Financial Officer.


We appreciate the cooperation and assistance provided to the OIG staff during the audit.


        /s/

MARLANE T. EVANS
Regional Inspector General
  for Audit
                       EXECUTIVE SUMMARY

                  ELECTRONIC BENEFITS TRANSFER SYSTEM
                           STATE OF NEW YORK
                       AUDIT REPORT NO. 27099-16-HY


                                        Beginning in the mid-1980s States began
      RESULTS IN BRIEF                  delivering Food Stamp Program (FSP) benefits
                                        via electronic benefits transfer (EBT) systems.
                                        The Office of Temporary and Disability
         Assistance (OTDA), the State agency in New York, participates in the
         Northeast Coalition of States (NCS) (a coalition of seven northeastern
         States). OTDA began converting its largest project area, the City of New
         York, to EBT issuance in March 1999 and completed the entire State in
         February 2001. We evaluated whether the Food and Nutrition Service
         (FNS) Northeast Regional Office’s (NERO) oversight of OTDA’s EBT system
         operations was adequate.           We also identified and tested OTDA’s
         established controls in key operational areas and assessed the adequacy of
         those controls. Our audit did not include an assessment of OTDA’s FSP
         eligibility determinations or the proper use of FSP benefits by recipients and
         authorized retailers. Accordingly, we make no conclusions regarding FSP
         eligibility determinations or proper use of FSP benefits.

            Overall, we found that FNS NERO’s oversight of OTDA’s EBT system and
            operations was adequate. NERO’s oversight included providing technical
            assistance during the State rollout as well as on a continuing basis. NERO
            staff is also involved in the NCS, participating in discussions and providing
            input into decisions.       Generally, OTDA had sufficient controls and
            procedures in place to ensure FSP benefits were initially made available to
            recipients in a timely manner, benefit cards were adequately controlled,
            transactions were accurately processed, and retailer payments were made
            in a timely and accurate manner. Additionally, OTDA performed adequate
            reconciliations of FSP issuance and payment data, and ensured help desk
            operations operated effectively. However, controls over system access,
            utilization of management reports, and recipient access to benefits need
            improvement. Specifically,

            •   OTDA has not established adequate controls over EBT system access
                and use of system access reports. OTDA relied upon Citicorp Electronic
                Financial Services (EFS) to develop an EBT system security plan.
                However, the plan did not adequately address procedures or controls for
                OTDA to remove system access for employees who have terminated

USDA/OIG-A/27099-16-Hy                                                            Page i
                          employment and those who no longer have a continuing need.
                          Additionally, OTDA did not receive or utilize necessary system reports to
                          effectively monitor EBT system access. As a result, there is increased
                          risk of unauthorized access to EBT benefits, although no unauthorized
                          access was identified.

                     •    OTDA does not fully utilize EBT management reports provided by
                          Citicorp EFS. OTDA officials felt certain management reports were not
                          useful because of format problems or perceived the reports were not
                          valuable for fraud reviews based on prior usage. As a result of not fully
                          utilizing EBT management reports, OTDA’s ability to effectively monitor
                          the EBT system is compromised and potential suspicious EBT activity
                          may not be detected.

                          Our review of selected management reports disclosed questionable
                          activity. For example, we analyzed 3 months of reported lost, damaged,
                          or stolen EBT cards; and out-of-State EBT transactions and identified the
                          following.

                          o 13 recipients reported three or more lost, damaged, or stolen EBT
                            cards; an indication that either they have not been properly trained
                            regarding the safeguarding of the EBT card, possible improper
                            disposal of the EBT card, or potential negligence.

                          o 37 recipients who received more than $22,000 in FSP benefits, used
                            approximately $9,700 in benefits as far away as Arizona, Florida,
                            Hawaii and New Hampshire, during at least 2 months of the 3 month
                            period, an indication that the recipients may no longer be residents of
                            the project area.

                     •    OTDA officials do not convert FSP benefits to cash or coupons when
                          recipients leave the project area. They require recipients moving from an
                          EBT issuance area to a non-EBT issuance area, to use their available
                          EBT benefits or lose them. This policy was implemented because of
                          concerns by OTDA management that maintaining food coupons was
                          burdensome and costly, and recipients who request that their benefits be
                          converted to cash may not actually be leaving the project area. As a
                          result, OTDA is in non-compliance with FSP regulations.

                     •    Recipients are not notified nor do recipient training materials provide
                          adequate information to the recipient about OTDA’s expungement1
                          policy. Without knowledge of the policy, a recipient may not be aware


1
    EBT benefits are required to be expunged when they have not been accessed by a recipient within the required timeframe and are
    subsequently no longer available for use.

USDA/OIG-A/27099-16-Hy                                                                                                  Page ii
                that after 270 days of inactivity, FSP benefits would no longer be
                available.

                                     FNS needs to ensure that OTDA implements
  KEY RECOMMENDATIONS                additional procedures and controls to improve
                                     system access, utilization of management
                                     reports, and recipient access to benefits.
         Specifically, OTDA needs to:

            •   Develop and implement controls for reviewing system access, including
                removing access for terminated employees, inactive users, duplicate
                logon identifications (IDs), and those who no longer have a need to
                access the EBT system.

            •   Obtain system access reports that identify user IDs by location and
                user’s last access date, and review for continuing need. Establish
                procedures for utilizing system access reports to monitor administrative
                terminal usage for improper activity.

            •   Better utilize management reports to more effectively monitor the EBT
                system, especially the reports used to detect potential improper activity.
                Require Citicorp EFS to correct report transmission problems in a timely
                manner or consider imposing fines as outlined in the EBT contract.
                Obtain from Citicorp EFS reports used to detect potential fraud in an
                electronic data file format.

            •   Implement controls to convert EBT benefits to either coupons or cash for
                recipients moving from a project area with EBT issuance to a project
                area without EBT issuance, including monitoring local agency
                implementation. Revise the EBT recipient training materials to include
                the State’s expungement policy.

                                         FNS and OTDA officials concurred with the
     AGENCY RESPONSE                     audit findings and recommendations, and
                                         reported either having implemented or are in
                                         the process of implementing corrective actions.

                                         OIG concurs with the proposed management
         OIG POSITION                    decisions.




USDA/OIG-A/27099-16-Hy                                                            Page iii
                                           TABLE OF CONTENTS

EXECUTIVE SUMMARY........................................................................................................ i
  RESULTS IN BRIEF ........................................................................................................... i
  KEY RECOMMENDATIONS............................................................................................ iii
  AGENCY RESPONSE...................................................................................................... iii
  OIG POSITION.................................................................................................................. iii
INTRODUCTION ................................................................................................................... 1
  BACKGROUND................................................................................................................. 1
  OBJECTIVES..................................................................................................................... 2
  SCOPE ............................................................................................................................... 2
  METHODOLOGY............................................................................................................... 3
FINDINGS AND RECOMMENDATIONS ............................................................................. 4
CHAPTER 1........................................................................................................................... 4
CONTROLS OVER EBT SYSTEM ACCESS NEED STRENGTHENING .......................... 4
  FINDING NO. 1 .................................................................................................................. 4
  RECOMMENDATION NO. 1 ............................................................................................. 6
  RECOMMENDATION NO. 2 ............................................................................................. 7
  RECOMMENDATION NO. 3 ............................................................................................. 7
  RECOMMENDATION NO. 4 ............................................................................................. 8
  RECOMMENDATION NO. 5 ............................................................................................. 8
CHAPTER 2......................................................................................................................... 10
EBT SYSTEM MANAGEMENT REPORTS NEED TO BE BETTER UTILIZED .............. 10
  FINDING NO. 2 ................................................................................................................ 10
  RECOMMENDATION NO. 6 ........................................................................................... 13
  RECOMMENDATION NO. 7 ........................................................................................... 13
  RECOMMENDATION NO. 8 ........................................................................................... 14
  RECOMMENDATION NO. 9 ........................................................................................... 15
CHAPTER 3......................................................................................................................... 16
FSP RECIPIENTS MAY NOT HAVE ACCESS TO ALL OF THEIR PROGRAM
BENEFITS............................................................................................................................ 16
  FINDING NO. 3 ................................................................................................................ 16
  RECOMMENDATION NO. 10 ......................................................................................... 17
  FINDING NO. 4 ................................................................................................................ 18
  RECOMMENDATION NO. 11 ......................................................................................... 19
  RECOMMENDATION NO. 12 ......................................................................................... 20
GENERAL COMMENTS ..................................................................................................... 21
EXHIBIT A – FNS REGIONAL OFFICE RESPONSE TO DRAFT REPORT ................... 24
ABBREVIATIONS ............................................................................................................... 31


USDA/OIG-A/27099-16-Hy                                                                                                       Page iv
                             INTRODUCTION

                                       The Food Stamp Program (FSP) is designed to
        BACKGROUND                     promote the general welfare and to safeguard
                                       the health and well being of the Nation’s
                                       population by raising the level of nutrition
          among low-income households. The Food and Nutrition Service (FNS)
          enters into agreements with State agencies (SA) to develop and implement
          the FSP within each State. The FNS Northeast Regional Office (NERO) has
          oversight responsibility for the Northeastern United States, including the
          State of New York. FNS and the States share the program’s administrative
          costs and FNS pays the full cost of recipient benefits.

           In the past, the basic method of FSP benefit delivery was the food stamp
           coupon. The Food Stamp Act of 1977 as amended, Public Law 88-525,
           authorized FNS to experiment with alternative methods for the delivery of
           FSP benefits using electronic data processing. In the mid-1980's, a
           computerized version of food stamp delivery, the electronic benefits transfer
           (EBT) system, was developed to replace paper coupons. Using a plastic
           card similar to a debit card and a personal identification number (PIN),
           recipients gain access to FSP benefits through point-of-sale (POS) terminals
           located at approved food retailers.

           The Personal Responsibility and Work Opportunity Reconciliation Act of
           1996 (also referred to as the Welfare Reform Act), Public Law 104-193,
           required that by October 1, 2002, all States must implement an EBT system
           for FSP benefit delivery. Generally, States award contracts to private sector
           companies to develop and operate their EBT systems. These companies
           are usually financial institutions or other organizations that already handle
           electronic funds transfer activities. However, States remain financially liable
           to the Federal Government for the actions of its EBT processors. As of
           June 2001, 42 States and the District of Columbia have operational food
           stamp EBT systems.

           FNS established rules for the delivery of FSP benefits using EBT systems in
           Title 7, Code of Federal Regulations (CFR) §274.12 and for approving
           automated data processing systems in Title 7, CFR §277.18. The FSP
           regulations specify functional areas to be addressed by the SA but do not
           establish a standardized system of internal controls. FNS' policy is to allow
           States the flexibility to establish control systems that meet each State’s
           individual needs.


USDA/OIG-A/27099-16-Hy                                                            Page 1
           In New York State, the Office of Temporary and Disability Assistance
           (OTDA), shares the responsibility for providing economic assistance to State
           residents with 58 local agencies, including the City of New York’s local
           welfare office, Human Resources Administration (HRA). OTDA (the SA)
           provides policy, technical support and guidance to local agencies.
           Personnel from the local agencies perform all of the duties of certifying a
           household’s eligibility and overseeing the household’s continued
           participation.

           OTDA has responsibility for establishing EBT system security, reconciling
           benefit issuance and retailer payments, conducting fraud investigations,
           monitoring the accountability of EBT card inventory, and issuing State FSP
           policy. New York City is responsible for certifying recipients, authorizing
           issuance of EBT cards and PINs, providing training on accessing EBT
           benefits, and conducting fraud investigations.           Citicorp EFS has
           responsibility for all EBT processing, instructing individuals who provide
           training to recipients and administrative staff, and operating the help desk.
           Affiliate Computer Services (ACS) (formerly Lockheed Martin IMS), a
           subcontractor for Citicorp EFS, is responsible for signing up retailers to
           accept FSP benefits via the EBT system and maintaining vouchers for
           certain manual transactions.

           OTDA selected Citicorp EFS as its processor and began implementing EBT
           in March 1999. Prior to audit fieldwork, EBT was implemented in the
           5 boroughs of New York City. As of February 2001, EBT was implemented
           Statewide. In fiscal year (FY) 2001, FSP benefits in New York were more
           than $1.36 billion with almost $1.25 billion or 92 percent issued via EBT.

                                         The primary objective of the audit was to
         OBJECTIVES                      provide an evaluation of the adequacy of
                                         OTDA’s EBT internal controls and assess
                                         whether controls functioned as designed.
          Specifically, we (1) identified internal controls established in key operational
          areas, (2) tested to ensure controls were in place and operated as designed,
          and (3) provided an assessment of the adequacy of prescribed controls. We
          also evaluated whether the FNS NERO’s oversight of the OTDA’s EBT
          system operations was adequate.

                                      The audit was conducted at FNS NERO in
            SCOPE                     Boston, Massachusetts; OTDA in Albany, NY;
                                      HRA in New York City, NY; OTDA‘s card
                                      issuance center in Manhattan, NY; and the
           Metro office of the New York State Department of Mental Retardation and

USDA/OIG-A/27099-16-Hy                                                            Page 2
           Developmental Disability in Manhattan, NY. We judgmentally selected,
           based on the proximity to public transportation, a food stamp office in
           Manhattan, NY; and a public assistance center in Brooklyn, NY; to review
           EBT system access. Based on data analysis of manual transactions we
           selected four retailers in the Bronx and Queens, NY to review selected
           manual vouchers. Our audit covered the period October 1999 through July
           2000. We conducted our fieldwork from February 2000 through July 2001.

           We evaluated NERO’s oversight and the OTDA’s administration and
           management of the EBT system. During the audit we also assessed the
           adequacy and operation of internal controls to ensure controls were
           established in key operational areas in the EBT system. The operational
           areas included: reconciliation of State issuance data, help desk operations,
           fraud detection, use of EBT management reports, access to and security
           over the EBT system and out-of-State transactions.

           The audit was conducted in accordance with generally accepted
           Government auditing standards.

                                      To accomplish our audit objectives, we
       METHODOLOGY                    reviewed applicable laws and regulations, FSP
                                      policies and procedures, and pertinent
                                      correspondence at FNS NERO, the OTDA and
         the HRA. We interviewed responsible OTDA, HRA, NERO, and ACS
         officials. We reviewed contractual arrangements between Citicorp EFS,
         OTDA and third-party processors. At the OTDA we assessed the adequacy
         of procedures, in part, by performing analysis of system access, out-of-State
         transactions, help desk activity, and manual transaction reports to identify
         trends and questionable activity.




USDA/OIG-A/27099-16-Hy                                                         Page 3
                      FINDINGS AND RECOMMENDATIONS



    CHAPTER 1                       CONTROLS OVER EBT SYSTEM ACCESS NEED
                                               STRENGTHENING

                                                OTDA officials have not established adequate
                 FINDING NO. 1                  controls over EBT system access and use of
                                                system access reports. OTDA officials relied
                                                upon Citicorp EFS to develop a security plan.
                    However, the plan did not adequately address security procedures or
                    controls for OTDA. Additionally, OTDA officials did not receive or utilize
                    necessary system reports to effectively monitor EBT system access. As a
                    result, there is increased risk of unauthorized access to EBT benefits,
                    although no unauthorized access was identified.

                      FSP regulations2 state the SA is responsible for protecting equipment used
                      in food stamp data processing systems from unauthorized use. The SA
                      must also establish procedures to protect FSP data and equipment from
                      theft and unauthorized use.

                      OTDA’s EBT system has users with two types of access. Users who help
                      recipients select PINs and administrative personnel who research account
                      information and resolve difficulties with account balances.

                      Authorization for system access is the same for both PIN devices3 and
                      administrative terminals. The OTDA unit or HRA site supervisor determines
                      if an individual needs access and the type of access they need. They
                      complete and submit an access request form to the OTDA security officer.
                      The security officer approves the request and then forwards it to Citicorp
                      EFS. Citicorp EFS provides the individual with a logon ID and a first time
                      password, which the employee must change upon their initial use.
                      Removing an employee’s access upon termination or transfer to a new
                      location requires the location supervisor to notify the OTDA security officer of
                      the needed change.



2
    Title 7, CFR 277.18(p)(2)(ii)(B), dated April 1, 1992.
3
    A PIN device is an instrument used to select a new PIN.

USDA/OIG-A/27099-16-Hy                                                                        Page 4
           OTDA officials provided us with a Citicorp EFS listing of individuals with user
           access to the EBT system. In March 2000, there were 388 logon IDs with
           access to the PIN devices and 417 logon IDs with access to the
           administrative terminals. We reviewed the listings for date of last access
           and duplicate login IDs. We judgmentally selected two HRA eligibility sites
           to perform further testing of system access. At each HRA site, the site
           manager provided either a list of individuals with access or the original forms
           requesting access to the EBT system. We reviewed the HRA information for
           current employment and continued need for access. Our review disclosed
           the following.

           •   2 of 26 employees, with access to either PIN devices or administrative
               terminals, at the two HRA sites reviewed, had current access but had left
               HRA employment. The site supervisors had not notified the OTDA
               security officer, as required, of the employees termination from HRA.
               These individuals had not accessed the EBT system during the last
               6 months.
           •   332 employee logon IDs with access to PIN devices had not logged onto
               the EBT system in more than 3 months. Active management control of
               logon IDs is critical to ensure that inactive and unauthorized users are
               removed.
           •   13 pairs of logon IDs with access to administrative terminals, who had
               the same name, were identified. OTDA officials stated at least two pair
               had logon IDs for multiple locations. OTDA officials have not provided
               OIG with additional information about the remaining 11 pairs of logon
               IDs.

           OTDA and HRA site supervisors were not actively managing security access
           or fully utilizing the capabilities of the EBT system to monitor FSP activity.

           •   OTDA had not performed any reviews of users to determine continued
               need.
           •   HRA site supervisors did not always know who had access to the EBT
               system because they did not always maintain a listing, on site, of
               individuals authorized. At one site, the supervisor identified one
               individual as having access, who did not. Also, the report provided by
               Citicorp EFS does not identify logon IDs by location to facilitate review by
               OTDA or HRA staff.
           •   OTDA officials did not receive nor request a report from Citicorp EFS
               identifying the last time staff accessed the EBT system until OIG
               requested such a list. This occurred because EBT staff did not recognize
               the usefulness of such information. With this type of report, OTDA could
               identify logon IDs that are not being used and should be removed.


USDA/OIG-A/27099-16-Hy                                                             Page 5
           •   OTDA officials only used the “Daily Administrative Transaction Detail
               Report” (which identifies, by logon ID, card and case number the
               functions performed by State or local employees) to monitor the food
               benefits assigned to undercover investigations. This report could also
               have been used to monitor administrative terminal usage for improper
               activity. The following transaction types should be monitored: inactive
               benefits, conversion to cash, issuance of emergency benefits, and re-
               payments of outstanding claims. For example, if no one is monitoring
               administrative terminal usage, a dishonest employee could review
               recipient accounts and identify inactive accounts to access. This
               unauthorized access would not be detected unless the recipient reported
               it to someone. No unauthorized access was identified.

           Citicorp EFS prepared a draft security plan, as required by the EBT contract.
           The plan describes how the processor will address the security system from
           its perspective. This plan provides guidance for the SA for authorizing
           system access. However, the plan does not address security procedures for
           removing system access for employees upon termination or reassignment,
           reviewing for continuing need for system access, and identifying and
           removing inactive and duplicate logon IDs.

           OTDA officials need to develop procedures for use by the SA and local
           agencies that address EBT system security, including removing system
           access for employees upon termination or reassignment, reviewing for
           continuing need for system access, and identifying and removing inactive
           and duplicate logon IDs. OTDA officials also need to obtain additional
           system access reports and make better use of reports to identify patterns
           and unusual access by individuals accessing the EBT system.

                                       Require OTDA to develop and implement
  RECOMMENDATION NO. 1                 controls for reviewing system access, including
                                       removing access for terminated employees,
                                       inactive users, duplicate logon IDs, and those
                                       who no longer have a need to access the EBT
                                       system.

           FNS Response

           As of April 1, 2001, OTDA developed and implemented controls for
           reviewing system access, including removing access for terminated
           employees, inactive users, duplicate logon IDs, and those who no longer
           have a need to access the EBT system.




USDA/OIG-A/27099-16-Hy                                                          Page 6
           OTDA has always required that local district terminal security coordinators
           be informed of employees who terminate employment or change
           responsibilities. They are also required to disable those employees’ access
           to the appropriate NT User ID account(s) for the State’s own systems. This
           procedure requires the terminal security coordinator to remove access via a
           WEBSTAR online transaction disabling the NT account. As a result of this
           transaction, a terminated employee is removed from access to all local
           district PCs, and as a result, disabling access to the desktop where the EBT
           administrative application resides.

           OIG Position

           We concur with the proposed management decision.

                                       Require OTDA to obtain and review system
  RECOMMENDATION NO. 2                 access reports that identify user IDs by location
                                       and a user’s last access date for continuing
                                       need.
           FNS Response

           Beginning December 1, 2001, OTDA will receive quarterly reports identifying
           user IDs by county location, last login date, and last password change date.
           See response to Recommendation No. 1, OTDA reported they implemented
           controls as of April 1, 2001, for reviewing system access for continued need.

           OIG Position

           We concur with the proposed management decision.

                                       Require OTDA to remove logon IDs for all users
  RECOMMENDATION NO. 3                 who no longer have a need for access or who
                                       have been identified as inactive.

           FNS Response

           As of April 1, 2001, OTDA began removing logon IDs for all users who no
           longer needed access or who were identified as inactive. This resulted in
           the deletion of 1,305 administrative inquiry system users and 814 PIN
           terminal system users. These deletions include inactive users. This process
           will be completed by November 30, 2001.

           OIG Position

           We concur with the proposed management decision.

USDA/OIG-A/27099-16-Hy                                                          Page 7
                                         Require OTDA to determine whether the
  RECOMMENDATION NO. 4                   13 pairs of logon IDs are for the same
                                         individuals. If they are, delete the duplicate
                                         logon IDs.

           FNS Response

           During the recent purge (which started April 1, 2001 and will end
           November 30, 2001) the State eliminated the small number of duplicate IDs
           addressed in the report. In preparation for the next quarterly purge cycle,
           which begins on December 1, 2001, Citicorp EFS is preparing current
           listings of accounts that have not been accessed in the prior 90 days. These
           will be distributed to upstate and New York City supervisory staff. Districts
           will be required to report any additional deletes for staff that no longer need
           access to the Citibank system. In addition, districts will be required to
           provide delete forms or, if continued access is still required, to request resets
           for each user listed on the 90-day report.

           OIG Position

           We concur with the proposed management decision.

                                         Require OTDA to establish procedures for
  RECOMMENDATION NO. 5                   utilizing system access reports to monitor
                                         administrative terminal usage for improper
                                         activity.

           FNS Response

           The Daily Administrative Transaction Detail report currently consists of
           transactions processed using the Citicorp administrative terminal system.
           The update authorities of the system consist of screens that allow an
           authorized user to enter transactions affecting the balance of EBT accounts.
           These transactions include voluntary repayments, adjustments, food to cash
           conversions, and benefit update (new benefit adds).               Benefit add
           transactions are centralized and only authorized to be performed by one
           specific Bureau of Audit and Quality Control (A&QC) fraud investigator.
           A&QC has always received the transaction report, and used it daily to
           reconcile transaction and user information for investigator cards.

           OTDA recognizes that this report requires monitoring by additional
           individuals within the department. The OTDA will be meeting internally to
           identify the requirements for monitoring these transactions. They will also
           identify procedures and specific staff at the State and district levels, in

USDA/OIG-A/27099-16-Hy                                                              Page 8
           addition to A&QC, who will be required to review the report. OTDA
           anticipates that by February 1, 2002, the process will be in place to verify
           and confirm administrative terminal user activity for adjustments, food to
           cash conversion, and voluntary repayments.

           OIG Position

           We concur with the proposed management decision.




USDA/OIG-A/27099-16-Hy                                                         Page 9
    CHAPTER 2                      EBT SYSTEM MANAGEMENT REPORTS NEED TO
                                              BE BETTER UTILIZED


                                                 OTDA officials do not fully utilize EBT
                 FINDING NO. 2                   management reports provided by Citicorp EFS.
                                                 OTDA officials felt certain management reports
                                                 were not useful because of format problems or
                    perceived the reports were not valuable for fraud reviews. As a result,
                    OTDA’s ability to effectively monitor the EBT system is compromised and
                    potential improper EBT activity may not be detected.

                      FSP regulations4 state that the SA should require the EBT system to provide
                      reports that enable the SA to manage the system. Further, the EBT
                      contract5 states that reports and data extracts6 are deliverables necessary to
                      the performance of essential Federal and State government operations and
                      program management.

                      Citicorp EFS provides 35 different management reports to OTDA. Some of
                      these reports are paper copies while others are in an electronic format. We
                      reviewed the distribution and access of these management reports and
                      determined that adequate security controls were maintained over all reports
                      except the Manual Authorization Report. This report contains confidential
                      recipient information and was stored in an unlocked filing cabinet. An OTDA
                      staff person subsequently corrected this problem during the audit, by moving
                      the report to a locked file cabinet. The OTDA fiscal staff utilizes this report
                      for daily verification of the outstanding EBT balance.

                      OTDA officials did not adequately utilize EBT management reports. The
                      reports were generally distributed as specified. However, OTDA officials
                      requested that the EBT processor no longer provide the Exceeded PIN
                      Attempts Report, Lost/Damaged/Stolen Card Report and the ATM/POS
                      Out-of-State Usage Report because of report format problems or because
                      the Bureau of Audit and Quality Control staff perceived the reports as not
                      being useful for fraud reviews. OTDA staff stated that they reduced use of
                      the Monthly Manual Transaction Usage Report to a minimum because past
                      use of the report did not disclose suspicious activity. By not utilizing these
                      reports, OTDA is reducing its ability to detect and prevent improper activity
                      and other program related problems. OTDA staff reported that based on

4
    Title7 CFR 274.12 (j)(2), dated April 1, 1992.
5
    Article VI, Section 6.1 of the EBT contract.
6
    Defined in Section 2.8 of Appendix C of the EBT contract.

USDA/OIG-A/27099-16-Hy                                                                      Page 10
           OIG’s inquiry, receipt of two of the above reports were subsequently
           resumed.

           We requested copies of the above-mentioned reports for at least a 3 month
           period. Based on auditor judgment, we established identifiers of potential
           improper activity (e.g., three or more lost, damaged, or stolen EBT cards;
           recipients utilizing their program benefits out-of-State at least 2 months in a
           row; etc.). Using these identifiers, we noted the following.

           •   More than 7,500 recipients reported lost, damaged, or stolen EBT cards
               between May and July 2000. Of these, thirteen recipients reported three
               or more lost, damaged or stolen cards; an indication that either they have
               not been properly trained regarding safeguarding the EBT card, possible
               improper disposal of the EBT card, or potential negligence.

           •   121 recipients used almost $17,100 of FSP benefits at POS terminals
               out-of-State (excluding NJ and CT) between January and March 2000.
               Of these, 37 recipients used approximately $9,700 in benefits
               out-of-State, as far away as Arizona, Florida, Hawaii and New
               Hampshire, during at least 2 months of the period. According to OTDA
               officials, these recipients received $22,229 in food stamp allotments
               during this time period. We researched twelve of these recipients (those
               that had used large dollar amounts or used benefits all 3 months
               out-of-State) and determined that all of one recipient’s transactions were
               made out-of-State. This recipient continues to receive benefits as an
               active case. Seven other recipients conducted all or nearly all of their
               transactions out-of-State during this period but are no longer receiving
               program benefits. Review of this report can assist in identifying
               recipients who may no longer be residents of the project area.

           •   We reviewed paper copies of Monthly Manual Transaction Usage
               Reports and Manual Authorization Reports for the period October 1999
               through February 2000 and determined that there were over
               31,000 manual transactions totaling more than $1.3 million. We also
               obtained electronic report files of these same reports for the period
               February through April 2000.            These latter reports disclosed
               10,502 manual transactions valued at more than $484,000.                We
               reviewed these reports to identify retailers with large volume of
               transactions, large dollar value of transactions, or transactions with even
               dollar amounts.

               o Using the paper copies, we judgmentally selected 14 manual
                 transactions for review, based on the above criteria. We determined
                 that 7 transactions were from large or medium size retailers, where

USDA/OIG-A/27099-16-Hy                                                           Page 11
                               the probability of fraud is limited and no additional follow up was
                               performed. For the remaining 7 transactions we either determined
                               the reason for the manual transaction (e.g., system was down) or
                               performed a site visit to determine whether the transaction was
                               supported. We conducted site visits to 4 retailers to review
                               supporting documentation. Two retailers, including one where a
                               $1,000 manual transaction occurred, did not maintain copies of the
                               manual voucher for at least 3 years after the transaction was
                               approved, as required by the retailer agreement7. The recipient
                               responsible for the $1,000 transaction was subsequently interviewed
                               by State investigators, as a result of our audit, and dropped from the
                               FSP.

                          o Using the electronic files, we also identified 47 retailers with more
                            than 50 manual transactions, 87 retailers who processed even dollar
                            transactions, and 2 individual manual transactions for more than
                            $500. These manual transactions totaled almost $350,000. In
                            identifying the above retailers we removed retailers who we expected
                            to have a high number of manual transactions including retailers
                            without EBT POS equipment, rolling stores (e.g., fruit and vegetable
                            trucks), and a non-profit food buying cooperative (retailer who buys in
                            bulk and provides at no or reduced cost food items to low income
                            families).    We also excluded retailers whose monthly manual
                            transactions averaged less than $300, and one retailer who
                            voluntarily withdrew from the FSP. The above information was
                            obtained from the manual transaction management reports and
                            should be utilized by appropriate personnel to determine if potential
                            or improper client activity has or is occurring.

                      OTDA officials have experienced report format and transmission problems
                      with ten management reports, resulting in limited use of these reports. For
                      example, one report, Monthly List of Even Dollar Transactions, was missing
                      a data field; without this field an extraordinary amount of time could be spent
                      unnecessarily researching voided transactions. Other reports, required by
                      the EBT contract, were not received by the OTDA. These reports included
                      three Daily Manual Authorization Reports and four ATM/POS out-of-State
                      Reports. The OTDA did not impose a fine of up to $10,000 in accordance
                      with the EBT contract for each incident of contract noncompliance.

                      The NCS are working to design and develop a Specialized Fraud and Abuse
                      Reporting System (SFARS) that will combine daily transaction detail from
                      the EBT processor with some retailer information from FNS’ Store Tracking
                      and Redemption Subsystem and eligibility information from the States’
7
    Standard retailer agreement for EBT program, Section 4 Paragraphs and c.

USDA/OIG-A/27099-16-Hy                                                                      Page 12
           welfare systems. Fraud investigators will have the ability to manipulate this
           information and create customized reports to better monitor fraud-prone
           profiles. As of July 2001, SFARS has not been developed. In the interim,
           OTDA officials should make better use of the available management reports
           from Citicorp EFS to monitor program operations.

           OTDA officials need to better utilize EBT management reports provided by
           Citicorp EFS or develop their own reports, establishing appropriate
           parameters and thresholds for identifying potential improper and
           questionable activity and following up on the same. They also need to
           ensure reports from Citicorp EFS are received and are in a useable
           electronic format.

                                        Direct OTDA to better utilize management
  RECOMMENDATION NO. 6                  reports in order to more effectively monitor the
                                        EBT system, especially the reports used to
                                        detect potential improper activity.

           FNS Response

           As of January 2000, A&QC determined that the Citicorp reports were
           consistently unreliable and elected, instead, to use EBT transaction data
           from the daily State Fraud and Abuse Reporting System (SFARS) extract
           file. Over the past 18 months, this daily extract has been accumulated in an
           effort to develop a database of EBT transactions. Pending the development
           of SFARS (targeted for August 2002) A&QC is using Audit Control
           Language (ACL) software to analyze the data and detect improper EBT
           activity, including even dollar transactions and out of State activity, so that
           they can take appropriate action.

           OIG Position

           We concur with the proposed management decision.

                                        Direct OTDA to have Citicorp EFS correct
  RECOMMENDATION NO. 7                  report transmission problems in a timely
                                        manner, or consider imposing fines as outlined
                                        in the EBT contract.

           FNS Response

           Effective January 2000, OTDA requested Citicorp EFS to start sending
           reports via File Transfer Protocol (FTP) to the State’s host. Over the
           following 6 months, the State worked with the contractor to debug the

USDA/OIG-A/27099-16-Hy                                                           Page 13
           process, determine the reason files were not received, and correct the
           problems. Citicorp EFS instituted a help desk/trouble ticket system to log
           and track instances of missed files and ensure delivery. Upon receipt, the
           State host routes the reports to appropriate servers for access by
           responsible staff. Each day, State finance bureau operations and A&QC
           staffs review report delivery to their respective servers. In the event that a
           report is not received, the staff contacts the Citicorp helpdesk and the
           reports are re-sent. Over time, this corrective action has resulted in a vast
           improvement in the timeliness and completeness of reports received.

           OIG Position

           We concur with the proposed management decision.

                                Direct OTDA to obtain from Citicorp EFS
  RECOMMENDATION NO. 8          reports in an electronic data file format in order
                                to more effectively monitor potential improper
                                activity.   These include Monthly Manual
       Transaction Usage and ATM/POS Out-of-State Usage reports.

           FNS Response

           As of January 2000, A&QC determined that the Citicorp reports were
           consistently unreliable and elected, instead, to use EBT transaction data
           from the daily SFARS extract file. Over the past 18 months, this daily extract
           has been accumulated in an effort to develop a database of EBT
           transactions.    Pending the development of SFARS (targeted for
           August 2002) A&QC is using ACL (Audit Control Language) software to
           analyze the data and detect improper EBT activity, including even dollar
           transactions and out-of-State activity, so that they can take appropriate
           action.

           OIG Position

           We concur with the proposed management decision.




USDA/OIG-A/27099-16-Hy                                                          Page 14
                                        Direct OTDA to ensure the EBT processor is
  RECOMMENDATION NO. 9                  requiring retailers who complete manual
                                        transactions to maintain copies of the approved
                                        voucher in accordance with the merchant
                                        agreement.

           FNS Response

           As of November 1, 2001, OTDA confirmed that the EBT contractor
           maintains all records, required by the State and FNS, that are necessary to
           verify the accuracy, timeliness, completeness or reliability of the processing
           of EBT transactions. OTDA also ensures that the contractor obtains a
           signed merchant agreement from each retailer, which stipulates that they
           retain POS receipts and approved manual voucher copies for a period of
           3 years following the transaction authorization. The agreement further
           requires that records involving matters of litigation be maintained by the
           merchant for no less than 3 years after the termination of the litigation.
           These requirements are to be discussed at the time the agreement is
           signed.

           It is impossible for either the State or the EBT contractor to ensure that each
           and every retailer retains each and every manual voucher for 3 full years.
           There are no provisions in the New York contract with Citicorp EFS to have
           the contractor routinely or periodically verify or monitor manual voucher
           retention. Nor are there such provisions in any other State EBT contract.
           Retailers are required to maintain these records so that they can provide
           them to the contractor or State in the event of a dispute. Failure to do so
           results in a decision in favor of the household.

           OIG Position

           We concur with the proposed management decision.




USDA/OIG-A/27099-16-Hy                                                           Page 15
    CHAPTER 3                      FSP RECIPIENTS MAY NOT HAVE ACCESS TO ALL
                                           OF THEIR PROGRAM BENEFITS

                      OTDA is in non-compliance with FSP regulations relating to benefit
                      conversion and expungement notification. Specifically, OTDA does not
                      convert FSP benefits to cash or coupons when recipients move to a non-
                      EBT issuance area. Also, recipients have not been provided notification of
                      OTDA’s policy for removing benefits (expungements) when EBT accounts
                      are not accessed for a period of time. As a result, there is a risk that OTDA
                      may deny recipients access to benefits for which they are entitled.

                                           OTDA does not convert FSP benefits to cash or
           FINDING NO. 3                   coupons when recipients move to a non-EBT
                                           issuance area.        OTDA officials require
     AVAILABLE FSP BENEFITS ARE            recipients moving from an EBT issuance area
     NOT CONVERTED TO CASH OR              to a non-EBT issuance area to use their
      COUPONS WHEN RECIPIENTS              available EBT benefits or lose them. This
        LEAVE PROJECT AREA                 policy was implemented because of concerns
                                           by OTDA management that maintaining food
                                           coupons was burdensome and costly, and
              recipients who request that their benefits be converted to cash may not be
              leaving the project area, as reported. As a result, there is a risk that OTDA
              may deny recipients access to benefits for which they are entitled.

                      FSP regulations8 require households leaving an EBT project area to be able
                      to convert their electronic benefits to coupons. FNS approved a waiver in
                      August 1995 that was extended in September 1996, allowing OTDA to
                      convert EBT benefits to cash for recipients moving to a non-EBT area.

                      A May 8, 1995, request by OTDA personnel proposed to cash-out FSP
                      balances for recipients who relocate to a non-EBT location. The request
                      cited the burdensome and costly administrative activity of storing and issuing
                      coupons at the local or State level. The request also stated mail issuance
                      lacked adequate security. On August 8, 1995, FNS approved the wavier as
                      a demonstration project after the State began issuing EBT FSP benefits. On
                      September 13, 1996, FNS approved extension of the wavier to include the
                      EBT system implementation period.          However, the waiver was not
                      implemented by OTDA. A State EBT official stated the OTDA had concerns
                      about individuals claiming to move to obtain cash benefits and then not
                      actually moving.

8
    7 CFR Part 274.12(f)(5)(i), dated April 1, 1992.

USDA/OIG-A/27099-16-Hy                                                                     Page 16
                      HRA implemented a directive9 that states in part, “Advise participants to
                      remove all EBT cash and food stamp benefits from their account before
                      leaving the State.” The local area personnel stated that the policy was “use
                      it or lose it.”

                      An HRA official stated that they thought the above directive, not to provide
                      cash benefits, came from a FNS policy. They also stated that OTDA had
                      previously attempted to obtain permission to issue cash in case of
                      catastrophic events and had been denied the ability by FNS. Therefore,
                      they assumed FNS would never permit the issuance of cash in any
                      circumstances. They were unaware that FNS had approved the indicated
                      program waiver.

                      During the period, February 23, 200010 to July 31, 2000, over $4.9 million in
                      FSP benefits were expunged from recipient accounts. Benefits are
                      expunged when the recipient has not accessed them for a designated period
                      of time. OTDA’s time period is 270 days. Neither OTDA nor HRA
                      maintained records of benefits expunged for recipient households who
                      moved either out of State or between the city and the upstate area during
                      this period. Potentially, a portion of these expunged benefits may have been
                      for recipients who left the project area and were unable to convert their
                      remaining benefits to coupons or cash.

                      Subsequent to fieldwork, OTDA documented a policy regarding conversion
                      of food stamp benefits to cash when recipients move out-of-State. To
                      ensure that recipients have access to all of their FSP benefits, OTDA needs
                      to implement controls regarding this policy. These procedures should
                      include monitoring by OTDA of local agency implementation.

                                   Require OTDA to implement controls to convert
      RECOMMENDATION NO. 10        EBT benefits to either coupons or cash for
                                   recipients moving from an area with EBT
                                   issuance to an area without EBT issuance.
            These procedures should include OTDA monitoring of local agency
            implementation.

                      FNS Response

                      OTDA issued an informational Letter (INF), INF 01 INF 14, to all local district
                      commissioners on August 6, 2001. The INF instructed local districts that
                      when a New York State food stamp recipient moves to a Non-Quest State,


9
     HRA Policy Directive No. 99-24R(2), dated February 22, 2000.
10
     Earliest date FSP expungement data was available.

USDA/OIG-A/27099-16-Hy                                                                      Page 17
                       the local district must convert the recipient’s available FS EBT benefits to
                       cash.

                       Since New York State is fully operational in EBT, there is no conversion
                       issue with recipients moving from district to district within New York State.

                       OTDA has assured FNS that in the rare instance that a complaint is
                       received, the State will work to resolve the issue. Since the inception of EBT
                       in New York, fewer than five such complaints have been registered.

                       OIG Position

                       We concur with the proposed management decision.

                                                            Recipients are not notified nor do recipient
                  FINDING NO. 4                             training materials provide adequate information
                                                            to the recipient about OTDA’s expungement
          RECIPIENTS NEED TO BE                             policy. Without knowledge of the policy, a
        INFORMED OF THE BENEFIT                             recipient may not be aware that after 270 days
          EXPUNGEMENT POLICY                                of inactivity, FSP benefits would no longer be
                                                            available to purchase eligible food items.

                       OTDA’s training package or video did not provide adequate written or verbal
                       notice to households concerning the expungement of their FSP benefits.
                       Once any portion of a household’s benefits reaches 9 months without use,
                       Citicorp EFS expunges all remaining benefits in the household’s account.
                       However, recipients are not informed that this action will occur.

                       FSP regulations11 state that if EBT accounts are inactive for 3 months, the
                       SA may store such benefits off-line and then expunge benefits that have not
                       been accessed by the household after a period of 1 year. However, the SA
                       should attempt to notify the household of this action and describe the steps
                       necessary to bring the benefits back on-line. FNS approved two waivers
                       impacting the above regulations, dated August 10, 1995. The waivers
                       allowed OTDA to expunge benefits after a full 9 months of inactivity rather
                       than after a period of 1 year. It also required households to be notified at the
                       time they receive training (initial, ongoing and re-certification) of reactivation
                       procedures, rather than when EBT benefits are moved off-line.

                       No inactive or dormant period exists for food stamp benefits at OTDA.
                       Benefits are not taken off-line until they are expunged. All benefits in an
                       account are expunged when some or all of those benefits have not been
                       accessed for 270 days. Almost 25,500 households’ food stamp benefits,
11
     Title 7, CFR Part 274.12(f)(7), dated April 1, 1992.

USDA/OIG-A/27099-16-Hy                                                                            Page 18
                      totaling more than $4.9 million, were expunged during the period
                      February 3, 200012 through July 30, 2000. At OTDA, if a recipient requests
                      that benefits still eligible for use be reinstated, OTDA will manually calculate
                      the amount of available benefits and re-post them to the recipient’s account.
                      In FY 2001, OTDA reported that there were no requests for reinstatement of
                      benefits. OTDA officials stated they are currently preparing written
                      procedures, which will require each local office to reinstate FSP benefits that
                      are still available for use, but they did not have an estimated date for
                      implementation.

                      The EBT Overview Training Manual, dated November 1998, for HRA staff
                      and supervisors to familiarize themselves with EBT, discusses the OTDA
                      policy on expungement and reinstatement of benefits. However, the
                      recipient training materials do not mention the State’s expungement policy.
                      Additionally, a video shown continuously at eligibility locations, where
                      recipients’ eligibility is determined, briefly states that benefits not used would
                      be lost. We reviewed the OTDA’s training video and noted that it had a
                      vague reference to expungements, but there was no mention of the period
                      that benefits remain active. During our site visits to income support and food
                      stamp office waiting rooms, we observed that this video is difficult to watch
                      and listen to because of the number of individuals present and the related
                      distractions that occur. Without knowledge of the expungement policy, a
                      recipient would not be aware that after 270 days of inactivity they would no
                      longer have access to expunged food benefits and would have to request
                      restoration of eligible benefits in order to use them.

                      OTDA needs to incorporate it’s expungement policies in its recipient training
                      materials to ensure that all recipients are aware that unused FSP benefits
                      will be expunged after 270 days of inactivity.

                                                                Direct OTDA to revise its recipient training
     RECOMMENDATION NO. 11                                      materials to include its expungement policy.


                      FNS Response

                      A description of expungement policy is now provided to recipients in the
                      Client Information Booklet, revised in August 2001, to reflect this information.
                      Supplies of these information booklets are available in Local Department
                      Social Service reception areas and are required to be included in application
                      and recertification packages.



12
     Expungement information prior to this period did not separately identify cash and food stamp benefits.

USDA/OIG-A/27099-16-Hy                                                                                        Page 19
           OIG Position

           We concur with the proposed management decision.

                                       Direct OTDA to develop written procedures to
 RECOMMENDATION NO. 12                 reinstate FSP benefits that are still available for
                                       use.

           FNS Response

           The OTDA is developing a release to local districts specifically addressing
           the reissuance of expunged FS benefits less than 270 days old if requested
           by the recipient. This release, 00 ADM-8, is scheduled for issuance in
           January 2002.

           OIG Position

           We concur with the proposed management decision.




USDA/OIG-A/27099-16-Hy                                                           Page 20
                        GENERAL COMMENTS

           OTDA prepares a daily reconciliation which compares the amount Citicorp
           EFS reported as deposited into recipients’ accounts and the amount the
           Welfare Management System (WMS) reported that should have been
           deposited in each recipient’s account. These are not actual deposits, but the
           benefit amount OTDA authorizes recipients.

           Prior to posting benefits, a recipient account must be established. OTDA
           authorizes Citicorp EFS to create recipient accounts each business day by
           transmitting a batch file that includes the required account information.
           OTDA authorizes FSP benefits to these accounts by transmitting them to
           Citicorp EFS in either recurring files or special files. OTDA transfers
           recurring files to Citicorp EFS about ten days prior to the benefits’ availability
           date. OTDA transfers special files to Citicorp EFS each business day, the
           availability date is generally the next business day.

           Citicorp EFS does not post benefits to an account upon receiving OTDA’s
           file, but maintains the benefits in a pending file until the arrival of the
           availability date. Once the current date equals the availability date, Citicorp
           EFS posts the benefits to the recipient accounts during their end of day
           routine. OTDA may cancel their authorization of benefits (called a pending
           void) for a recipient any time up until the day the benefits are posted to the
           account. If Citicorp EFS is unable to post the benefits to an account, for
           whatever reason, Citicorp EFS places the benefits into an “uncashable”
           account and transmits a copy of this file to OTDA. OTDA transmits this
           information, daily, to each eligibility office. The eligibility office is then
           responsible for taking action to determine why the benefits did not post and
           correct any problems identified. Citicorp EFS will maintain these benefits in
           the “uncashable” account for 30 days, trying to post them each day. After
           30 days, Citicorp EFS will delete the benefit amounts.

           The summary of the WMS data (called the Deposit Verification report)
           reviews the WMS issuance files and totals the number and dollar value of
           benefits authorized for the day. The Deposit Verification report adjusts these
           numbers by the day’s benefits Citicorp EFS reported as “uncashable”, and
           the amount of that day’s “pending void” and “uncashable” benefits posted to
           recipient accounts. OTDA’s finance office personnel compare the day’s
           deposit amount computed by the Deposit Verification report to the deposit
           amount listed on the day’s Citicorp EFS report (State issuer report). If there
           are differences, a review is initiated to determine what caused the difference.
           Based on discussion with OTDA officials and review of 1 month’s

USDA/OIG-A/27099-16-Hy                                                             Page 21
                       reconciliations, OTDA, generally, identified and resolved differences during
                       FY 2000.

                       On February 23, 2000, OTDA’s reconciliation process did not initiate a
                       review of a $380,115 difference identified between deposit amounts in WMS
                       and Citicorp EFS records. OTDA officials believed that the identified
                       difference occurred because WMS ran the Deposit Verification report prior to
                       WMS finishing its end of day processing. As a result, OTDA did not ensure
                       that all authorized benefits were posted to the Citicorp EFS EBT system for
                       this date.

                       FSP regulations13 state the EBT system should provide reports and
                       documentation pertaining to reconciliation. Specifically, reconciliations
                       should be conducted and records kept of benefits posted to household
                       accounts on the central computer against benefits on the issuance
                       authorization file, and of total funds entered into, exiting from, and remaining
                       in the EBT system each day.

                       On February 23, 2000, we noted a $380,115 difference between what
                       Citicorp EFS said was deposited into recipients’ accounts and the amount
                       WMS stated should have been posted. Citicorp EFS’ State issuer report
                       showed a “deposit” of $394,637 while the Deposit Verification report showed
                       a “deposit” of $14,522.

                       We requested OTDA to provide details of its review into the difference. They
                       stated they could not determine why the difference occurred because the
                       WMS could not recreate the “deposits” by date without significant
                       reprogramming of the WMS.             OTDA officials speculated the WMS
                       completed the Deposit Verification report, on the Friday before a State
                       holiday, prior to WMS finishing its end of day processing which caused WMS
                       not to pick up all the benefits that were to be available February 23, 2000.

                       We assessed OTDA’s process for reconciling Citicorp EFS data to WMS
                       data and found for all other days of the month of February 2000, all
                       differences identified were resolved in a timely fashion.

                       The Deposit Verification report is normally run after the close of business,
                       however, on this date, it appears it was run prior to close of business and the
                       result was a timing error. Recognizing that the timing of this report must
                       occur at the close of business, OTDA requires that this report be run at the
                       proper time and has not had this type of problem occur again.



13
     Title 7, CFR 274.12 (j) (1) (i) and (v), dated April 1, 1992.

USDA/OIG-A/27099-16-Hy                                                                        Page 22
           We are not making any recommendations because OTDA has implemented
           controls to identify, review, and resolve differences identified in the
           reconciliation of EBT transactions.




USDA/OIG-A/27099-16-Hy                                                    Page 23
EXHIBIT A – FNS REGIONAL OFFICE RESPONSE TO DRAFT REPORT

                                                 Page 1 of 7




USDA/OIG-A/27099-16-Hy                             Page 24
                         Page 2 of 7




USDA/OIG-A/27099-16-Hy     Page 25
                         Page 3 of 7




USDA/OIG-A/27099-16-Hy     Page 26
                         Page 4 of 7




USDA/OIG-A/27099-16-Hy     Page 27
                         Page 5 of 7




USDA/OIG-A/27099-16-Hy     Page 28
                         Page 6 of 7




USDA/OIG-A/27099-16-Hy     Page 29
                         Page 7 of 7




USDA/OIG-A/27099-16-Hy     Page 30
                                                 ABBREVIATIONS

ACS
 Affiliate Computer Services................................................................................................ 2

CFR
 Code of Federal Regulations ............................................................................................. 1

EBT
  Electronic Benefits Transfer ................................................................................................ i
EFS
  Electronic Financial Services .............................................................................................. i

FNS
  Food and Nutrition Service.................................................................................................. i
FSP
  Food Stamp Program.......................................................................................................... i
FY
  Fiscal Year.......................................................................................................................... 2

HRA
 Human Resources Administration ..................................................................................... 2

ID
     Identification........................................................................................................................iii

NCS
 Northeast Coalition of States .............................................................................................. i
NERO
 Northeast Regional Office ................................................................................................... i

OTDA
 Office of Temporary and Disability Assistance ................................................................... i

PIN
  Personal Identification Number .......................................................................................... 1
POS
  Point-of-Sale....................................................................................................................... 1




USDA/OIG-A/27099-16-Hy                                                                                                          Page 31
SA
  State Agency ...................................................................................................................... 1
SFARS
  Specialized Fraud and Abuse Reporting System............................................................ 12

WMS
 Welfare Management System.......................................................................................... 21
